UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
October 21, 2020
Christopher M. Wolpert
Clerk of Court

ERIK SANCHEZ,
Petitioner - Appellant,
v.
TERRY JACQUES, Warden of the Limon
Correctional Facility,

No. 20-1253
(D.C. No. 1:20-CV-00427-LTB-GPG)
(D. Colo.)

Respondent - Appellee.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.

Erik Sanchez, a Colorado state prisoner proceeding pro se,1 seeks a certificate
of appealability (“COA”) to challenge a district court order denying his petition for a
writ of habeas corpus under 28 U.S.C. § 2254. He also moves to supplement the
record and to proceed in forma pauperis. Although we grant Sanchez’s motion to
proceed in forma pauperis, we deny both his motion to supplement the record and his
request for a CO A.

* This order is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive
value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
1 Because Sanchez appears pro se, we liberally construe his pleadings,
stopping short of serving as his advocate. See United States v. Pinson, 584 F.3d 972,
975 (10th Cir. 2009).

BACKGROUND
I.

State Court Proceedings
In June 2016, several Colorado police officers in patrol cars pursued Sanchez

after an officer spotted him speeding through a residential area in his car. One of the
police officers—in a fully marked patrol car with his lights and siren activated—tried
to pull Sanchez over but was unable to do so. Sanchez eventually stopped in a Taco
Bell parking lot allegedly to meet friends for dinner. Two officers pulled their SUV
behind his car, got out, and, with guns drawn, ordered Sanchez and his passenger to
exit the car.
In response, Sanchez twice rammed the back of his car into the officers’ SUV.2
Sanchez then sped away, forcing another officer standing in front of Sanchez’s car to
jump out of the way to avoid being run over. Another car chase ensued. Ultimately,
Sanchez crashed and abandoned his car, and officers arrested him as he tried to flee
on foot.
On June 10, 2016, Sanchez was charged in Colorado state court with two
counts of first-degree assault, two counts of attempted first-degree assault by extreme
indifference, one count of vehicular eluding, and one count of possession of drug
paraphernalia. On March 10, 2017, he pleaded guilty to two of the five charges—
attempted first-degree assault by extreme indifference and vehicular eluding. At the

2 Sanchez denied backing his car into the officers’ SUV a second time.
2

ovt-

plea hearing, the government set forth a short factual basis covering the entire
episode:
On June 10th just after midnight, Mr. Sanchez, you were operating a
motor vehicle. There was a chase.
At some point you were corralled behind a Taco Bell. Officers got out
of the car; you back up towards them, hit the car, backed up again, hit
the car again. They got out of harm’s way and you drove away.
R. at 85. After accepting Sanchez’s two guilty pleas, the trial court sentenced
Sanchez to two consecutive terms of imprisonment: six years for the attempted
assault and three years for the vehicular eluding.
On July 24, 2017, Sanchez filed in the trial court a “Motion to Correct Illegal
Sentence” (“Rule 35(a) Motion”) under Colorado Rule of Criminal Procedure 35(a).
In short, he argued that Colorado law required the trial court to impose concurrent
sentences because the charges arose out of the same incident and identical evidence
supported both convictions. See Colo. Rev. Stat. § 18-1-408(3). In a single sentence
near the end of the Rule 35(a) Motion, Sanchez asserted that the “[tjrial court’s order
to run Mr. Sanchez’s [sentences consecutively] violated Mr. Sanchez’s 8th and 14th
Amendments to the Constitution of the United States and the due process clause
of. . . Colorado’s Constitution.” R. at 131.
The trial court denied the Rule 35(a) Motion, ruling that identical evidence
didn’t support Sanchez’s two convictions. The trial court explained that, although the
assault “was committed the moment [Sanchez] accelerated his car into the officers’
SUV,” the vehicular eluding began when the officers tried to stop Sanchez before he
3

stopped at Taco Bell “and continued as [officers] attempted to arrest [Sanchez] at the
Taco Bell.” Id. at 137. This defeated Sanchez’s one-sentence constitutional claim.
Sanchez appealed the decision to the Colorado Court of Appeals. In his
opening brief, Sanchez advanced three arguments. First, Sanchez reasserted his statelaw statutory argument that the court could impose only concurrent sentences,
because, he said, identical evidence supported his two convictions. Second, he
asserted that the allegedly insufficient factual basis for the vehicular-eluding charge
violated the Due Process and Equal Protection Clauses of the Fourteenth
Amendment.3 Third, he asserted (in a new claim) that the trial court denied him the
opportunity to dispute the sufficiency of the factual basis relied on for the vehiculareluding charge, in violation of his right under the Sixth Amendment’s Confrontation
Clause (not specifying what in the record supported this allegation).
The Colorado Court of Appeals affirmed. Having reviewed the factual basis
the trial court established for the attempted assault charge at the plea hearing, the
court held that the proffered basis “in fact provided a factual basis for both counts.”
Id. at 85. Because the factual basis recounted Sanchez’s ramming his car into the
officers’ SUV and his eluding before and after this ramming, the court found that the
trial court had not erred by imposing consecutive sentences.

3 Sanchez’s Rule 35(a) Motion in the trial court referenced only a violation of
his “Fourteenth Amendment” rights; he didn’t specifically discuss his due process
and equal protection rights until his opening brief in the Colorado Court of Appeals.
4

As to Sanchez’s federal claims, the court denied them on both procedural
grounds and on the merits. Because Sanchez had raised his constitutional claims “for
the first time on appeal,” the court concluded he had forfeited them. Id. at 82.
Regardless, the court also denied them on the merits because “there was a factual
basis for the vehicular eluding count.” Id. at 82 n. 1.
II.

Federal Court Proceedings
In his § 2254 petition for a writ of habeas corpus, Sanchez reasserts the same

constitutional arguments he raised in the Colorado Court of Appeals. He premises his
constitutional claims on his disagreement with that court’s conclusion that Sanchez’s
factual basis covered both convictions.
The magistrate judge didn’t reach the merits of Sanchez’s claims. Instead, he
recommended denying Sanchez’s petition on grounds that Sanchez had not fairly
presented his federal constitutional claims to Colorado’s state courts. Further, the
magistrate judge found that Sanchez’s claims were procedurally barred because
Colorado rules would preclude Sanchez from returning to Colorado’s courts to
exhaust his federal claims. After considering the magistrate judge’s report de novo,
the district court adopted the report, denied Sanchez a COA, and dismissed the case.
DISCUSSION
Under 28 U.S.C. § 2253(c)(1)(A), Sanchez may appeal the district court’s
decision only if we issue a COA. To be entitled to a COA, he must make “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
Where, as here, the district court rejected the petitioner’s habeas application on
5

procedural grounds, he must show (1) “that jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right,” and
(2) “that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
“Each component of the § 2253(c) showing is part of a threshold inquiry, and a
court may find that it can dispose of the application in a fair and prompt manner if it
proceeds first to resolve the issue whose answer is more apparent from the record and
arguments.” Id. at 485. Although “[t]he procedural issue is frequently the easier one
to resolve,” Burke v. Bigelow, 792 F. App’x 562, 564 (10th Cir. 2019), here, we
conclude the issue whose answer is more apparent concerns whether the petition
states a valid claim of the denial of a constitutional right. When we deny a COA on
the first prong, “we need not examine the district court’s procedural ruling.” United
States, v. Springfield, 337 F.3d 1175, 1178 (10th Cir. 2003).
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”),
“the standard of review applicable to a particular claim depends on how that claim
was resolved by the state courts.” Byrd v. Workman, 645 F.3d 1159, 1165 (10th Cir.
2011) (citation omitted). When the state court has adjudicated a claim on the merits,
we may grant relief only if the state court’s decision “was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States,” 28 U.S.C. § 2254(d)(1), or “was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding,” id. § 2254(d)(2). And we must apply AEDPA’s deferential
6

standard for evaluating state-court rulings when considering requests for a COA. See
Dockins v. Hines, 374 F.3d 935, 938 (10th Cir. 2004) (“AEDPA’s deferential
treatment of state court decisions must be incorporated into our consideration of a
habeas petitioner’s request for COA.”).
We first consider whether the state court adjudicated Sanchez’s federal claims
on the merits. Sanchez argues that “[i]ts clear the Colorado Court of Appeals ruled on
the merits of Mr. Sanchez’s federal habeas corpus claims.” Opening Br. 35. We
agree. On plain error review, the Colorado Court of Appeals rejected Sanchez’s
federal constitutional claims because “there was a factual basis for the vehicular
eluding count.”4 R. at 82 n.l. Because the state adjudicated Sanchez’s claims on the
merits, Sanchez can obtain a COA only if reasonable jurists could debate whether the
state’s adjudication was contrary to clearly established federal law or was based on
an unreasonable determination of the facts. Sanchez fails to meet that burden.

4 When a state court summarily denies relief for a federal claim on plain-error
review, whether its disposition is entitled to § 2254(d) deference “depends on the
substance of the plain-error disposition.” Cargle v. Mullin, 317 F.3d 1196, 1206
(10th Cir. 2003). “A state court may deny relief for a federal claim on plain-error
review because it finds the claim lacks merit under federal law. In such a
case,. . . the state court’s disposition would be entitled to § 2254(d) deference
because it was a form of merits review.” Id. (internal citation omitted). But
sometimes a state court’s cursory explanation prevents the court from determining
whether the court’s review was merits-based. Douglas v. Workman, 560 F.3d 1156,
1178 (10th Cir. 2009). In such instances, “our cases require us to assume that the
state’s review is on the merits and thus afford it § 2254(d) deference.” Id. (applying
§ 2254(d) deference where the state court’s opinion stated only that it “reviewed” the
petitioner’s prosecutorial misconduct claims that were not properly preserved and
found no plain error) (citation omitted). Thus, although the Colorado Court of
Appeals didn’t detail its reasons for denying relief, we must assume its review was
on the merits.
7

(112-

“Whether the law is clearly established is the threshold question under
§ 2254(d)(1).” House v. Hatch, 527 F.3d 1010, 1015 (10th Cir. 2008) (citation
omitted). “That is, without clearly established federal law, a federal habeas court
need not assess whether a state court’s decision was ‘contrary to’ or involved an
‘unreasonable application’ of such law.” Id. at 1017 (quoting § 2254 (d)(1)) (citation
omitted). “Clearly established law is determined by the United States Supreme Court,
and refers to the Court’s ‘holdings, as opposed to the dicta.’” Id. at 1015 (quoting
Lockyer v. Andrade, 538 U.S. 63, 71 (2003)). Sanchez fails to direct us to any
Supreme Court precedent holding that a state trial court’s failure to identify which
specific facts support a defendant’s vehicular eluding charge violates the defendant’s
constitutional rights. Nor has our independent research identified any such case. This
absence of clearly established law “is dispositive under § 2254(d)(1).” Id. at 1018.
Sanchez’s petition fares no better under § 2254(d)(2). Section 2254(d)(2)
presents “a daunting standard—one that will be satisfied in relatively few cases.”
Byrd, 645 F.3d at 1172 (citation omitted). “[E]ven if reasonable minds reviewing the
record might disagree about the finding in question, on habeas review that does not
suffice to supersede the [state] court’s determination.” Wood v. Allen, 558 U.S. 290,
301 (2010) (brackets, ellipsis, and internal quotation marks omitted).
Reasonable jurists couldn’t debate whether the state court’s adjudication was
based on an unreasonable determination of the facts. The Colorado Court of Appeals
reviewed the factual basis the trial court established at the plea hearing and
concluded that “the factual basis provided for the attempted assault count in fact
8

provided a factual basis for both counts.” R. at 85. That is, while the attempted firstdegree assault conviction “was based on Sanchez’s act of driving his car into the
officer’s vehicle,” the vehicular-eluding conviction “was based on the chase that
occurred before the attempted assault and the chase that occurred when Sanchez
drove away from the scene in his car after the attempted assault.” Id. Accordingly,
the court ruled that “the evidence supporting the attempted assault charge was not
identical to the evidence supporting the eluding charge,” so the trial court “was not
required to sentence Sanchez concurrently.” Id. at 86. We find no error in the
Colorado Court of Appeals’ factual findings that support its holding.
In sum, reasonable jurists couldn’t debate whether the state court’s
adjudication was contrary to clearly established federal law or was based on an
unreasonable determination of the facts.
CONCLUSION
For the foregoing reasons, we conclude that jurists of reason couldn’t debate
whether Sanchez’s petition states a valid claim of the denial of a constitutional right.
We thus DENY Sanchez’s request for a CO A and DISMISS this matter.
We further deny Sanchez’s motion to supplement the record but grant his
motion to proceed on appeal in forma pauperis. For Sanchez’s benefit, we note that
28 U.S.C. § 1915 doesn’t allow litigants to avoid payment of filing and docketing
fees—only the prepayment of those fees.

9

rm

He is still required to pay the full amount of the filing fee in this matter. See
§ 1915(b).
Entered for the Court
Gregory A. Phillips
Circuit Judge

10

Rrh5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 20-cv-00427-LTB-GPG
ERIK SANCHEZ,
Applicant

v.
TERRY JACQUES, Warden of the Limon Correctional Facility,
Respondent.

ORDER

This matter is before the Court on the Recommendation of United States
Magistrate Judge (ECF No. 15) filed April 21, 2020. On May 4, 2020, Applicant filed a
“Motion for Enlargement of Time to File Objections to Recommendation of United States
Magistrate Judge and Request for Appointment of Counsel to File the Objections” (ECF
No. 16). Included in the motion are four objections to the Recommendation. (See ECF
No. 16 at pp.6-8.) On May 7, 2020, Magistrate Judge Gordon P. Gallagher granted the
motion in part by allowing additional time until June 8, 2020, to file objections. (See ECF
No. 17.) Magistrate Judge Gallagher denied Applicant’s request for appointment of
counsel to file the objections. (See id.)
Applicant has not filed any additional written objections within the time allowed.
However, in light of the timely written objections included in the motion filed on May 4,
2020, the Court has reviewed the Recommendation de novo in light of the file and

1

record in this case. On de novo review the Court concludes that the Recommendation is
correct.
Accordingly, for the foregoing reasons, it is
ORDERED that the Recommendation of United States Magistrate Judge (ECF
No. 15) is accepted and adopted. It is
FURTHER ORDERED that the Application for a Writ of Habeas Corpus Pursuant
to 28 U.S.C. § 2254 (ECF No. 1) is denied and the action is dismissed because
Applicant’s claims are procedurally barred. It is
FURTHER ORDERED that no certificate of appealability will issue because
Applicant has not made a substantial showing of the denial of a constitutional right. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith. It is
FURTHER ORDERED that all pending motions are denied as moot.
DATED: June 25, 2020
BY THE COURT:
s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge
Civil Action No. 20-CV-00427-LTB-GPG
ERIK SANCHEZ,
Applicant,

v.
TERRY JACQUES, Warden of the Limon Correctional Facility,
Respondent.
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
This matter comes before the Court on the Application for a Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2254 (ECF No. 1)1 filed pro se by Applicant on
February 18, 2020. The matter has been referred to this Magistrate Judge for
recommendation (ECF No. 14.)2

1 “(ECF No. 1)” is an example of the convention I use to identify the docket number assigned to a specific
paper by the Court's case management and electronic case filing system (CM/ECF). I use this convention
throughout this Recommendation.
2 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive or
general objections. A party’s failure to file such written objections to proposed findings and
recommendations contained in this report may bar the party from a de novo determination by the District
Judge of the proposed findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83
(1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file written objections to the proposed findings
and recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings and legal conclusions of the Magistrate Judge that are accepted
or adopted by the District Court. Thomas v. Am, 474 U.S. 140, 155 (1985); Moore v. United States, 950
F.2d 656, 659 (10th Cir. 1991).
1

RECEIVED
FEB 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 2 of 11

The Court must construe the Application and other papers filed by Mr. Sanchez
liberally because he is not represented by an attorney. See Haines v. Kerner, 404 U.S.
519, 520-21 (1972); Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). However,
the Court should not be an advocate for a pro se litigant. See Hall, 935 F.2d at 1110.
The Court has reviewed the filings to date. The Court has considered the entire
case file, the applicable law, and is sufficiently advised in the premises. This Magistrate
Judge respectfully recommends that the Application be denied.
I. FACTUAL AND PROCEDURAL BACKGROUND
Mr. Sanchez is challenging the validity of his consecutive sentences in Denver
District Court case number 16CR3754. He agreed to plead guilty to attempted first
degree assault and vehicular eluding and he was sentenced to consecutive terms of six
years on the attempted first degree assault count and three years on the vehicular
eluding count. Mr. Sanchez did not file a direct appeal. He did file a postconviction
motion in the trial court pursuant to Rule 35(a) of the Colorado Rules of Criminal
Procedure challenging the imposition of consecutive sentences. The trial court denied
the Rule 35(a) motion and, on January 31,2019, the Colorado Court of Appeals
affirmed the trial court’s order. (See ECF No. 8-3.)
Mr. Sanchez claims in the Application that the trial court imposed consecutive
sentences without a proper factual basis in violation of his rights to confrontation, due
process, and equal protection. More specifically, Mr. Sanchez contends his
confrontation rights were violated because he was not afforded an opportunity at his

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 3 of 11

providency hearing to challenge the factual basis that supported the trial court’s
imposition of a consecutive sentence for the vehicular eluding count. With respect to
due process and equal protection, he apparently contends that violation of the Colorado
statute governing consecutive sentences also violates those constitutional provisions.
On February 20, 2020, the Court ordered Respondent to file a Pre-Answer
Response limited to addressing the affirmative defenses of timeliness under 28 U.S.C. §
2244(d) and exhaustion of state remedies pursuant to 28 U.S.C. § 2254(b)(1)(A) if
Respondent intends to raise either or both of those defenses in this action. On February
26, 2020, Respondent filed a Pre-Answer Response (EOF No. 8) arguing that Mr.
Sanchez’s claims are unexhausted and procedurally defaulted. Respondent also notes
in the Pre-Answer Response that the proper Respondent is Terry Jacques, who is the
warden of the prison in which Mr. Sanchez is confined, rather than the Attorney General
of the State of Colorado. On April 1,2020, in reply to the Pre-Answer Response, Mr.
Sanchez filed a combined “Motion for Supplement Respondents Dean Williams and
Terry Jacques to be Added as Respondents if Needed and Applicant’s Reply to
Respondent’s Pre-Answer to Petition for Writ of Habeas Corpus” (ECF No. 12). The
motion will be granted in part and Terry Jacques will be substituted as Respondent.
II. DISCUSSION
A. ONE-YEAR LIMITATION PERIOD
Respondents do not argue that this action is barred by the one-year limitation
period in 28 U.S.C. § 2244(d).
B. EXHAUSTION OF STATE REMEDIES

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 4 of 11

Pursuant to 28 U.S.C. § 2254(b)(1), an application for a writ of habeas corpus
may not be granted unless it appears that the petitioner has exhausted state remedies
or that no adequate state remedies are available or effective to protect the petitioner’s
rights. See O’Sullivan v. Boerckel, 526 U.S. 838 (1999); Deverv. Kan. State
Penitentiary, 36 F.3d 1531, 1534 (10th Cir. 1994). The exhaustion requirement is
satisfied once the federal claim has been presented fairly to the state courts. See
Castille v. Peoples, 489 U.S. 346, 351 (1989). Fair presentation requires that the federal
issue be presented properly “to the highest state court, either by direct review of the
conviction or in a postconviction attack.” Dever, 36 F.3d at 1534.
Furthermore, the “substance of a federal habeas corpus claim” must have been
presented to the state courts in order to satisfy the fair presentation requirement. Picard
v. Connor, 404 U.S. 270, 278 (1971); see also Nichols v. Sullivan, 867 F.2d 1250, 1252
(10th Cir. 1989). Fair presentation does not require a habeas corpus petitioner to cite
“book and verse on the federal constitution.” Picard, 404 U.S. at 278 (internal quotation
marks omitted). However, “[i]t is not enough that all the facts necessary to support the
federal claim were before the state courts, or that a somewhat similar state-law claim
was made.” Anderson v. Harless, 459 U.S. 4, 6 (1982) (per curiam) (citation omitted). “If
state courts are to be given the opportunity to correct alleged violations of prisoners’
federal rights, they must surely be alerted to the fact that the prisoners are asserting
claims under the United States Constitution.” Duncan v. Henry, 513 U.S. 364, 365-66
(1995) (per curiam).
Finally, “[t]he exhaustion requirement is not one to be overlooked lightly.”

ai5°i

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 5 of 11

Hernandez v. Starbuck, 69 F.3d 1089, 1092 (10th Cir. 1995). A state prisoner bringing a
federal habeas corpus action bears the burden of showing he has exhausted all
available state remedies for each particular claim. See Miranda v. Cooper, 967 F.2d
392, 398 (10th Cir. 1992). A blanket statement that state remedies have been
exhausted does not satisfy this burden. See Olson v. McKune, 9 F.3d 95 (10th Cir.
1993); see also Fuller v. Baird, 306 F. App’x 430, 431 n.3 (10th Cir. 2009) (stating a
bald assertion unsupported by court records is insufficient to demonstrate state
remedies are exhausted).
As noted above, Mr. Sanchez claims his confrontation rights were violated
because he was not afforded an opportunity at his providency hearing to challenge the
factual basis that supported the trial court’s imposition of a consecutive sentence for the
vehicular eluding count. He also claims that violation of the Colorado statute governing
consecutive sentences violates due process and equal protection. Respondent
contends that Mr. Sanchez did not fairly present these federal constitutional claims to
the Colorado Court of Appeals. Mr. Sanchez counters that he fairly presented the claims
to the state courts in his Rule 35(a) motion and on appeal from the denial of that motion
to the Colorado Court of Appeals. In order to determine whether Mr. Sanchez has
exhausted state remedies the Court has considered the Rule 35(a) motion (see ECF
No. 12 at pp. 17-28), the trial court’s order denying the Rule 35(a) motion (see id. at
pp.30-33), Mr. Sanchez’s opening brief on appeal from the denial of the Rule 35(a)
motion (see ECF No. 8-2), Mr. Sanchez’s reply brief (see ECF No. 12 at pp.35-54), and
the opinion of the Colorado Court of Appeals affirming the trial court’s order (see ECF
5

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 6 of 11

No. 8-3). Mr. Sanchez also has submitted copies of various papers he filed in an effort
to persuade the Colorado Supreme Court to grant certiorari review after the Colorado
Court of Appeals affirmed the denial of his Rule 35(a) motion (see ECF No. 12 at pp.se­
ll 6), but those papers are not relevant to whether the federal constitutional claims in
the Application were fairly presented to the Colorado Court of Appeals.
Mr. Sanchez claimed in the Rule 35(a) motion that the trial court was required
under Colorado state law to impose concurrent rather than consecutive sentences for
attempted first degree assault and vehicular eluding because both crimes arose from
the same criminal episode and were supported by identical evidence. In a single
sentence at the end of the state law argument Mr. Sanchez also asserted that the
consecutive sentences “violated [the] 8th and 14th Amendments to the Constitution of the
United States” as well as the Colorado Constitution. (See ECF No. 12 at p.26.) The trial
court rejected the state law claim. The trial court did not address any constitutional
claims.
Mr. Sanchez appealed to the Colorado Court of Appeals and presented three
arguments in his opening brief. He first argued as a matter of state law that the trial
court erred by imposing consecutive sentences because the convictions arose from a
single criminal episode and proof of the vehicular eluding formed a substantial portion of
the proof of attempted first degree assault. As his second argument Mr. Sanchez
presented the following constitutional claim:
Trial court violated Appellant Sanchez’s due process & equal
protection of law right when it failed to enter into evidence
the factual basis of the actual conduct that would later serve
as the basis to impose concurrent or consecutive sentences,

ftlU

Case l:20-cv-00427-LTB-GPG

Document 15 Filed 04/21/20 USDC Colorado Page 7 of 11

and/or serve as the basis for denying post conviction 35(a)
motion to correct illegal sentence relief before it accepted the
guilty plea for the vehicular eluding charge. (5th & 14th
U.S.C.A.)
,
(ECF No. 8-2 at p.10 (some capitalization altered).) Mr. Sanchez’s third argument in his
opening brief raised another constitutional claim:
Trial court violated Appellant Sanchez’s confrontation right
when it denied post conviction Rule 35(a) motion to correct
illegal sentence relief based on factual basis conduct without
allowing Appellant Sanchez the fair opportunity to dispute
such allegations as trial court failed to enter into evidence
the factual basis it later used to impose consecutive
sentences and also use factual basis not entered into
evidence to deny the post conviction Rule 35(a) motion to
correct illegal sentence entitled before trial court accepted
the guilty plea for the vehicular eluding charge. (6th &14
U.S.C.A.)
(Id. (some capitalization altered).) In his reply brief Mr. Sanchez also argued that his
rights under Apprendi v. New Jersey, 530 U.S. 466 (2000), and Blakely v. Washington,
542 U.S. 296, 303 (2004), were violated.
The Colorado Court of Anneals declined to consider ML-Sanchezls. “argument
that the district court violated his right to due process and equal protection when.it failed
to require a

hagjg nn_thp vehicular eluding count before it accepted-hisjgjjiItv

plea” because he raised the claim for the first time on appeal in violation of Colorado
procedural rules. (ECF No. 8-3 at p.3.) The Colorado Court of Appeals also declined to
consider the Apprendi and Blakely argument because Mr. Sanchez violated Colorado
procedural rules by raising that argument for the first time in a reply brief. (See id. at
pp.3-4.) The Colorado Court of Appeals also did not address the Confrontation Clause
claim.
7

auo'T-

V
Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 8 of 11

© B T3 e c t cd (kL1 Q rvf £
The Court agrees with Respondent that Mr. Sanchez did not fairly present to the
Colorado Court of Appeals the federal constitutional claims he is asserting in the
Application. Although Mr. Sanchez asserted a Confrontation Clause claim in his opening

a
3

brief, he did not raise a Confrontation Clause claim in the Rule 35(a) motion filed in the

V

trial court Thus, like the due process and equal protection claims the Colorado Court of

*72

Appeals explicitly declined to consider because they were raised for the first time on

k
l)

appeal, the Confrontation Clause claim also was not fairly presented to the state

$

appellate court. See People v. Salazar, 964 P.2d 502, 507 (Colo. 1998) (“It is axiomatic

a

$

that issues not raised in or decided by a lower court will not be addressed for the first
time on appeal.”). The Court’s review of the state court briefs reveals that Mr. Sanchez

8

also did not raise before the Colorado Court of Appeals anv claim that violation of the
<*»

Colorado statute governing consecutive sentences also violatedJbis federal.

Ac
€5

constitutional rights to due process and equal protection Therefore the Court finds that

2s3

Mr. Sanchez failed to exhaust state remedies for the claims in the Application.

5
A&

C.PROCEDURAL DEFAULT
The Court may not dismiss the unexhausted claims for failure to exhaust state
remedies if Mr. Sanchez no longer has an adequate and effective state remedy
available to him. See Castille, 489 U.S. at 351. Here, the confrontation, due process,
and equal protection claims are subject to an anticipatory procedural default because
Mr. Sanchez no longer has an adequate and effective remedy available to him with
respect to those claims. See Coleman v. Thompson, 501 U.S. 722, 735 n.1 (1991)
(noting that, even if an unexhausted claim has not actually been raised and rejected by
8

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 9 of 11

the state courts on a procedural ground, the claim still is subject to an anticipatory
procedural default if it is clear that the claim would be rejected because of an
independent and adequate state procedural rule).
In particular, Rule 35(c)(3)(VII) of the Colorado Rules of Criminal Procedure
prevents Mr. Sanchez from returning to state court to raise his federal constitutional
claims in a new postconviction motion. Rule 35(c)(3)(VII) provides that, with limited
exceptions not applicable to Mr. Sanchez, the state court must dismiss any claim that
could have been presented in a prior appeal or postconviction proceeding.
Federal courts “do not review issues that have been defaulted in state court on
an independent and adequate state procedural ground, unless the default i&-sxeuse4
through a showing of cause and actual prejudice or a fundamental-miscarriage of
justice.” Jackson v. Shanks, 143 F.3d 1313, 1317 (10th Cir. 1998). Application of this
procedural default rule in the habeas corpus context is based on comity and federalism
concerns. See Coleman, 501 U.S. at 730.
“A state procedural ground is independent if it relies on state law, rather than
federal law, as the basis for the decision.” English v. Cody, 146 F.3d 1257, 1259 (10th
Cir. I99at /k state procedural ground is adeguate if it “was firmly established and
regularly followed.” Beard v. Kindler, 558 U.S. 53, 60 (2009) (internal quotation marks
omitted).
Mr.------.---Sanchez
fails to demonstrate that Rule 35(c)f3WII)
Colorado Rules of
—------------ ---------of
* the-----------------Criminal Procedure is not an independent and adequate state procedural rule. In any
event, the Court finds it is independent because the rule relies on state rather than

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 10 of 11

federal law. Rule 35(c)(3WIH also is adequate because it is applied evenhandedly by
Colorado courts. See, e.g., People v, Vondra, 240 P.3d 493, 494-95 (Colo. App. 2010)
(applying Crim. P. Rules 35(c)(3)(VI) and A/m jo reject claims that were or coulcLhaye
been raised in a prior proceeding): see also LeBere v. Abbott, 732 F.3d 1224, 1233 n.13
(10th Cir. 2013) (noting that several unpublished cases have indicated Colorado’s rule
barring claims that could have been raised previously is an independent and adequate
state ground precluding federal habeas review). Therefore, the claims in the Application
are procedurally defaulted and cannot be considered unless Mr. Sanchez demonstrates
cause and prejudice or a fundamental miscarriage of justice. See Jackson, 143 F.3d at
1317.
Mr. Sanchez fails to demonstrate either cause and prejudice or a fundamental
miscarriage of justice. As a result, the Court finds that Mr. Sanchez’s claims are
procedurally barred.
III. ORDER AND RECOMMENDATION
For the reasons set forth herein, this Ma*gistrate Judge respectfully
ORDERS that the “Motion for Supplement Respondents Dean Williams and Terry
Jacques to be Added as Respondents if Needed and Applicant’s Reply to Respondent’s
Pre-Answer to Petition for Writ of Habeas Corpus” (ECF No. 12) is granted in part and
Terry Jacques is substituted as Respondent in this action; and
RECOMMENDS that the Application for a Writ of Habeas Corpus Pursuant to 28
U.S.C. § 2254 (ECF No. Pjoe denied and the action be dismissed because Applicant’s
i.i

claims are procedurally barred.
—ii

" '■

■■

'

-

'*~

■

'

-

»

10

Case l:20-cv-00427-LTB-GPG Document 15 Filed 04/21/20 USDC Colorado Page 11 of 11

DATED April 21, 2020.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

11

RJWoU

Case l:20-cv-00427-LTB-GPG Document 19 Filed 06/25/20 USDC Colorado Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 20-CV-00427-LTB-GPG
ERIK SANCHEZ,
Applicant,
v.
TERRY JACQUES, Warden of the Limon Correctional Facility,
Respondent.

ORDER

This matter is before the Court on the Recommendation of United States
Magistrate Judge (ECF No. 15) filed April 21, 2020. On May 4, 2020, Applicant filed a
“Motion for Enlargement of Time to File Objections to Recommendation of United States
Magistrate Judge and Request for Appointment of Counsel to File the Objections” (ECF
No. 16). Included in the motion are four objections to the Recommendation. (See ECF
No. 16 at pp.6-8.) On May 7, 2020, Magistrate Judge Gordon P. Gallagher granted the
motion in part by allowing additional time until June 8, 2020, to file objections. (See ECF
No. 17.) Magistrate Judge Gallagher denied Applicant’s request for appointment of
counsel to file the objections. (See id.)
Applicant has not filed any additional written objections within the time allowed.
However, in light of the timely written objections included in the motion filed on May 4,
2020, the Court has reviewed the Recommendation de novo in light of the file and

1

Case l:20-cv-00427-LTB-GPG Document 19 Filed 06/25/20 USDC Colorado Page 2 of 2

record in this case. On de novo review the Court concludes that the Recommendation is
correct.
Accordingly, for the foregoing reasons, it is
ORDERED that the Recommendation of United States Magistrate Judge (ECF
No. 15) is accepted and adopted. It is
FURTHER ORDERED that the Application for a Writ of Habeas Corpus Pursuant
to 28 U.S.C. § 2254 (ECF No. 1) is denied and the action is dismissed because
Applicant’s claims are procedurally barred. It is
FURTHER ORDERED that no certificate of appealability will issue because
Applicant has not made a substantial showing of the denial of a constitutional right. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith. It is
FURTHER ORDERED that all pending motions are denied as moot.
DATED: June 25, 2020
BY THE COURT:

s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

Case l:20-cv-00427-LTB-GPG Document 23 Filed 07/07/20 USDC Colorado Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 20-cv-00427-LTB-GPG
ERIK SANCHEZ,
Applicant,
v.
TERRY JACQUES, Warden of the Limon Correctional Facility,
Respondent.

ORDER DENYING MOTION TO RECONSIDER

This matter is before the Court on the “Motion for Rehearing and Leave to Accept
Applicant’s Objections to Recommendation of United States Magistrate Judge Filed
Before Motion for Extension of Time Had Been Ruled On” (ECF No. 22). The motion
was filed pro se by Applicant on July 2, 2020. The Court must construe the motion
liberally because Applicant is not represented by an attorney. See Haines v. Kerner,
404 U.S. 519, 520-21 (1972); Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
The Court construes the motion as a motion to reconsider the Court’s Order (ECF No.
19) dismissing the action and the Judgment (ECF No. 20) entered on June 25, 2020.
For the reasons discussed below, the motion to reconsider will be denied.
A litigant subject to an adverse judgment, and who seeks reconsideration by the
district court of that adverse judgment, may “file either a motion to alter or amend the
judgment pursuant to Fed. R. Civ. P. 59(e) or a motion seeking relief from the judgment
pursuant to Fed. R. Civ. P. 60(b).” Van Skiver v. United States, 952 F.2d 1241, 1243

Ru»°l

Case l:20-cv-00427-LTB-GPG

Document 23 Filed 07/07/20 USDC Colorado Page 2 of 4

(10th Cir. 1991). A motion to alter or amend the judgment must be filed within twentyeight days after the judgment is entered. See Fed. R. Civ. P. 59(e).
The Court construes the motion to reconsider as being asserted pursuant to Rule
59(e) because the motion was filed within twenty-eight days after the Judgment. A Rule
59(e) motion may be granted “to correct manifest errors of law or to present newly
discovered evidence.” Phelps v. Hamilton, 122 F.3d 1309, 1324 (10th Cir. 1997)
(internal quotation marks omitted). Relief under Rule 59(e) also is appropriate when “the
court has misapprehended the facts, a party’s position, or the controlling law.” Servants
of the Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000).
Applicant is a prisoner in the custody of the Colorado Department of Corrections.
He initiated this action by filing an Application for a Writ of Habeas Corpus Pursuant to
28 U.S.C. § 2254 (ECF No. 1) challenging the validity of his consecutive sentences in
Denver District Court case number 16CR3754. On April 21, 2020, Magistrate Judge
Gordon P. Gallagher recommended that the Application be denied and the action be
dismissed because Applicant’s claims are procedurally barred. (See ECF No. 15.) On
May 4, 2020, Applicant filed a “Motion for Enlargement of Time to File Objections to
Recommendation of United States Magistrate Judge and Request for Appointment of
Counsel to File the Objections” (ECF No. 16). Included in the motion are four objections
to the Recommendation. (See ECF No. 16 at pp.6-8.) On May 7, 2020, Magistrate
Judge Gallagher granted the motion in part by allowing additional time until June 8,
2020, to file objections. (See ECF No. 17.) Magistrate Judge Gallagher denied
Applicant’s request for appointment of counsel to file the objections. (See id.) Applicant

m
#

Case l:20-cv-00427-LTB-GPG Document 23 Filed 07/07/20 USDC Colorado Page 3 of 4

did not file any further objections within the time allowed.
On June 25, 2020, the Court entered an Order (ECF No. 19) accepting and
adopting the Recommendation to dismiss the action because Applicant’s claims are
procedurally barred. In light of the timely written objections included in the motion filed
on May 4, the Court reviewed the Recommendation de novo. Four days later, on June
29, 2020, the Court received and filed “Applicant’s Objections to Recommendation of
United States Magistrate Judge” (ECF No. 21). That document was submitted to prison
officials for mailing to the Court on June 22, 2020. (See ECF No. 21 at p.33.)
In the motion to reconsider Applicant asks the Court to deem his objections (ECF
No. 21) that were received after the action was dismissed as timely filed. According to
Applicant, he did not file any prior objections, the Court never ruled on his motion for
extension of time to file objections (ECF No. 16), and the objections (ECF No. 21) were
submitted to prison officials for filing before the Court entered the order dismissing the
action.
Upon consideration of the motion to reconsider and the entire file, the Court finds
that Applicant fails to demonstrate any reason why the Court should reconsider and
vacate the order to dismiss this action. Contrary to Applicant’s assertion, his motion for
extension of time to file objections (ECF No. 16) was granted in an Order (ECF No. 17)
filed on May 7, 2020, and the time to file objection was extended until June 8, 2020.
Thus, the Court’s Order (ECF No. 19) accepting and adopting the Recommendation
was not entered while the motion for extension of time remained pending. Furthermore,
even accepting that “Applicant’s Objections to Recommendation of United States

e#
#

rtn-i

'

Case l:20-cv-00427-LTB-GPG

Document 23 Filed 07/07/20 USDC Colorado Page 4 of 4

Magistrate Judge” (ECF No. 21) were filed on June 22, 2020, pursuant to the prisoner
mailbox rule, see Price v. Philpot, 420 F.3d 1158, 1163-66 (10th Cir. 2005), those
objections were not timely. Accordingly, it is
ORDERED that the “Motion for Rehearing and Leave to Accept Applicant’s
Objections to Recommendation of United States Magistrate Judge Filed Before Motion
for Extension of Time Had Been Ruled On” (ECF No. 22) is DENIED. It is
FURTHER ORDERED that no certificate of appealability will issue because
Applicant has not made a substantial showing of the denial of a constitutional right.
DATED at Denver, Colorado, this

7th

day of

July

, 2020.

BY THE COURT.

s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

7#
#

Appellate Case: 20-1253

Document: 010110439504

Date Filed: 11/17/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal:
Tenth Circuit

FOR THE TENTH CIRCUIT

November 17, 2020
Christopher M. Wolpert
Clerk of Court

ERIK SANCHEZ,
Petitioner - Appellant,
v.

No. 20-1253
(D.C. No. 1:20-CV-00427-LTB-GPG)
(D. Colo.)

TERRY JACQUES, Warden of the Limon
Correctional Facility,
Respondent - Appellee.

ORDER

Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.

Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

